OFFICE OF THE INSPECTOR GENERAL
CORPORATION FOR NATIONAL AND
      COMMUNITY SERVICE




          Pre-Audit Survey of the
 Parents as Teachers National Center, Inc.
         Grant No. 0 1SPHM0004

    OIG Audit Report Number 02-27
            June 26,2002




               Prepared by:

              CNCS OIG
         1201 New York Avenue
         Washington, DC 20525
                                            Pre-Audit Survey of the
                                   Parents as Teachers National Center. Inc.
                                           Grant No . 01SPHM0004

                                                     Table of Contents



OVERVIEW OF PARENTS AS TEACHERS NATIONAL CENTER. INC ..................... 2

BACKGROUND OF PARENTS AS TEACHERS NATIONAL CENTER. INC .............. 2

OBJECTIVES. SCOPE. AND METHODOLOGY .............................................................
                                                                                            3

RESULTS ............................................................................................................................4
Office of Inspector General                                                                  CORPORATION
1201 New York Avenue, NW
                                                                                             FOR NATIONAL
Washington, DC 20525




   June 26,2002




   Peg Rosenberry, Director OGM
   Corporation for National and Community Service
   1201 New York Avenue
   Washington, DC 20525

   We performed a pre-audit survey of Parents as Teachers National Center, Inc. Grant No.
   01SPHM0004. The primary purpose of this survey was to provide a preliminary
   assessment of:

       The grant award and terms;
       Findings from the most recent A- 133 audit;
       Fiscal or program issues raised by CNCS site visits.

   We were also to report on the recommended scope of additional aucdit procedures to
   performed at the Grantee.

   Overview of Parents as Teachers National Center, Inc.

   Parents as Teachers National Center, Inc. (PATNC) is a national non-profit parent
   education and family support organization. Through a network of local programs, the
   PATNC develops curriculum, trains, and certifies parent educators to work with parents
   to provide them with parenting support and information on their developing child.

   Background

   The National and Community Service Trust Act of 1993, P.L. 103-82, which amended
   the National and Community Service Act of 1990, established the Corporation for
   National and Community Service.

    The Corporation, pursuant to the authority of the Act, awards grants and cooperative
    agreements to state commissions, nonprofit entities, tribes and territories to assist in the
    creation of full and part time national and community service programs. Through these
    grantees, members perform service to meet the educational, human, environmental, and
    public safety needs throughout the nation, especially addressing those needs related to
poverty. In return for this service, eligible members receive a stipend, accident insurance,
personal liability insurance, automobile insurance, free meals at host institutions and
physical examinations.

Parents As Teachers was piloted in four Missouri school districts in 1981, before going
statewide. It is now in each of the 535 Missouri school districts. It has been
implemented in 2,000 program sites in 48 other states, as well as Australia, Canada,
England, Malaysia, New Zealand, and the West Indies. The Missouri Department of
Elementary and Secondary Education administers PATNC.

Objectives, Scope, and Methodology

The scope of this engagement was to provide an assessment of the grant and site visit
information systems and procedures in place at the Corporation's headquarters and for
monitoring the fiscal activity. The primary purpose of this pre-audit survey was to
provide a preliminary assessment of:

    The amount, term and grant provisions;
    The results of A- 133 audits;
    Results of CNCS site visits.

We were also to report on the recommended scope of additional audit procedures to be
performed at the Grantee.

Our survey included the following procedures:

    reviewing the grant award, its provisions, the detailed grant proposal and budget;

    reviewing OMB Circular A- 133 reports and;

    obtaining information from CNCS site visits and from discussion with CNCS Grants
    Management Office.

Our procedures were performed in accordance with Government Auditing Standards
issued by the Comptroller General of the United States. We were not engaged to, and did
not perform an audit of any financial statements, and the procedures described above
were not sufficient to express an opinion on the controls at the Grantee, or on its
compliance with applicable laws, regulations, contracts and grants, or the allowability of
grant costs incurred. Accordingly, we do not express an opinion on any such financial
statements, or on the Grantee's controls or compliance. Had we performed additional
procedures, other matters might have come to our attention that would have been
reported.
Results

Based on the results of the limited procedures performed, we will proceed with an
incurred cost audit of project period April 1,2001 through June30,2002. The decision to
audit is based on the following:

   This is PATNC's first Federal grant;

   PATNC has never had an A-1 33 Single Audit in accordance with OMB Circular A-
   133;

   Another earmark grant was awarded to PATNC in the Government Fiscal Year 2002
   Appropriation.

This report is intended solely for the use of the Office of Inspector General and the
Corporation for National and Community Service.




Terry Bathen
Acting Inspector General
Corporation for National and Community Service
Washington, D.C.


Copy to:

Wendy Zenker, COO
Gary Kowalczyk, Director, Planning & Program Integration
Dana Rodgers, Program Officer
